1 8 0 0 M S T R E E T, N W
SUITE

800 N

WASHINGTON, DC 20036
TEL

202.783.4141

FA X

202.783.5851

W W W.W B K L AW. C O M

October 21, 2020
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NW
Washington, DC 20543
Re:

NTCH, Inc. v. Federal Communications Commission, The United States of
America, and DISH Network Corporation, No. 20-410

Dear Mr. Harris:
I represent DISH Network Corporation (“DISH”) in the above-referenced Petition for
Writ of Certiorari. Responses to the Petition are due October 29, 2020. DISH anticipates that it
will file a Brief in Opposition in response to the Petition.
By letter dated October 21, 2020, Respondents Federal Communications Commission
and the United States of America requested an extension of the time for filing their Brief in
Opposition through and including November 30, 2020.
DISH respectfully requests, under Rule 30.4 of the rules of this Court, that the deadline
for filing its Brief in Opposition be similarly extended through and including November 30,
2020. This extension is necessary to allow time to prepare the brief given the complications
arising from the Covid-19 pandemic and the press of other work. In addition, the extension will
promote administrative efficiency and orderliness by allowing responses to the Petition to be
filed concurrently.
Please contact the undersigned with any questions regarding this submission.
Respectfully submitted,
/s/ Jennifer Tatel
Jennifer B. Tatel
Counsel for DISH Network Corporation
cc:

Attached Service List

Petition for Writ of Certiorari in NTCH, Inc. v. Federal Communications Commission, The
United States of America, and DISH Network Corporation, No. 20-410
Maureen K. Flood
Jacob M. Lewis
Richard K. Welch
Federal Communications Commission
445 12th Street, SW
Washington, DC 20554
maureen.flood@fcc.gov
Counsel for the Federal Communications Commission
Jeffrey B. Wall
Acting Solicitor General
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States
Donald J. Evans
Counsel of Record
Keenan Adamchak
Fletcher, Heald & Hildreth
1300 N. 17th St., 11th Floor
Arlington, VA 22209
(703) 812-0430
evans@fhhlaw.com
Counsel for Petitioner

